APPENDIX

APPENDIX TABLE OF CONTENTS
Opinion of the Eleventh Circuit Court of
Appeals affirming the district court’s dismissal
of Petitioner’s § 2254 petition, entered
May 23, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Opinion of the Eleventh Circuit Court of
Appeals denying Petition for Rehearing and
for Rehearing En Banc, entered July 17, 2019 . . . . 9
Opinion of Eleventh Circuit Court of Appeals
granting Certificate of Appealability, entered
October 17, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Judgment of the District Court for the Middle
District of Georgia dismissing Petitioner’s
§ 2254 petition and denying a Certificate of
Appealability, entered June 16, 2017. . . . . . . . . . . 20
Order of the District Court for the Middle
District of Georgia adopting Magistrate’s Report
and Recommendation and granting Respondent’s
Motion to Dismiss, entered June 16, 2017 . . . . . . . 21
Report and Recommendation of Magistrate
Judge for the Middle District of Georgia
recommending the granting of Respondent’s
Motion to Dismiss Petitioner’s § 2254 petition,
entered on March 23, 2017. . . . . . . . . . . . . . . . . . . . 25
Petitioner’s Response to Motion to Dismiss,
filed with District Court for the Middle
District of Georgia, on October 4, 2016 . . . . . . . . . . 38
Motion to Dismiss Petition as Untimely, filed
with the Middle District of Georgia, on
September 13, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . 59

Petition Under 28 U.S.C. § 2254 for a Writ of
Habeas Corpus, filed with the Middle District
of Georgia, on May 18, 2016 . . . . . . . . . . . . . . . . . . 62
Order of the Georgia Supreme Court denying
Application for Certificate of Probable Cause,
entered on June 1, 2015 . . . . . . . . . . . . . . . . . . . . . 82
Order of the Georgia Supreme Court denying
Motion for Reconsideration, entered on
July 6, 2015. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

Case No. 17-13226 Date Filed: 05/23/2019
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_____________________________________
No. 17-13226
______________________________________
D.C. Docket No. 5:16-cv-00182-MTT-CHW
SHAWN C. RULTAND,
Petitioner-Appellant,
versus
WARDEN, SMITH STATE PRISON
Respondent-Appellee
______________________________________
Appeal from the United States District Court
For the Middle District of Georgia
_______________________________________
(May 23, 2019)
Before WILSON, MARTIN, and HULL, Circuit
Judges.
PER CURIAM:

1

Shawn Rutland, a prisoner in Georgia serving
a life sentence, appeals the district court’s dismissal
of his federal habeas petition for untimeliness. After
careful consideration, we affirm.
I.
On December 5, 2007, a jury convicted
Rutland of armed robbery, hijacking a motor vehicle,
and aggravated assault. Rutland was sentenced to
life in prison on the armed robbery count, with
twenty years of imprisonment to be served
consecutively on the hijacking charge and twenty
years to be served concurrently on the aggravated
assault charge. During sentencing, the following
exchange took place between the court and counsel
for Rutland:
Judge Stoddard: All right. You can file
your motion for new trial, and then for
the procedure that you have in place to
go ahead. You have the right to file a
habeas corpus as to this sentence, and it
has to be filed within four years of the
date the conviction becomes final, either
from direct review or from any other
kind of delay because of appellate
review or sentence review, but you have
four years to file a habeas corpus. Have
you discussed that with [Rutland] as
well?
Mr. Waller; Yes, Your Honor.
Rutland appealed his convictions and
sentences to the Georgia Court of Appeals, which
affirmed in part, reversed in part, and remanded for
2

reconsideration of Rutland’s motion for a new trial.
See Rutland v. State, 675 S.E.2d 506, 55 (Ga. App.
2009). On remand, the trial court reassessed
Rutland’s motion for a new trial under the correct
legal standard and denied it. Rutland once again
appealed to the Georgia Court of Appeals, which
affirmed the decision on March 3, 2010. He did not
seek further review on direct appeal.
Some time in November 2012, Rutland hired
his present counsel to represent him in state habeas
proceedings. On October 17, 2013, counsel filed a
state habeas application in the Superior Court of
Tattnall County, Georgia, raising a number of claims
of ineffective assistance of counsel. The superior
court held an evidentiary hearing on Rutland’s
claims and denied the application on February 2,
2015. Rutland then filed a petition for a certificate of
probable cause with the Georgia Supreme Court,
which denied him leave to appeal on June 1, 2015.
The Georgia Supreme Court denied Rutland’s motion
for reconsideration on July 6, 2015.
Rutland, still represented by present counsel,
filed a federal petition for habeas corpus in the
Middle District of Georgia on May 18, 2016. He
raised three claims of ineffective assistance of
counsel based on: (1) trial counsel’s failure to obtain
an eyewitness identification expert; (2) trial counsel’s
failure to object to the victim’s testimony that he was
certain his attacker was the defendant; and (3) trial
counsel’s decision not to introduce into evidence the
lead detective’s termination from the police
department for dishonesty. The state responded by
filing a motion to dismiss the petition as untimely.

3

Rutland argued in opposition to the motion to
dismiss that he was entitled to equitable tolling and
that his petition was timely as a result. He explained
that he was misled by the state trial court into
thinking that he had four years to file any habeas
petition—be it state or federal. He argued that the
state trial court’s misleading instructions constituted
an extraordinary circumstance that warranted
equitable timing.
The magistrate judge issued a report and
recommendation recommending that Rutland’s
petition be dismissed as untimely. The district court
adopted the magistrate judge’s recommendation with
some amendments and dismissed the petition over
Rutland’s objections. The district court rejected
Rutland’s argument that he was entitled to equitable
tolling, finding that the trial judge’s instructions
“were not ‘affirmatively misleading’” and that, in any
event, Rutland was represented by counsel when the
judge made his statement. The district court then
denied Rutland a certificate of appealability.
Rutland requested and received a certificate of
appealability from this Court. The only questions on
appeal is whether Rutland is entitled to equitable
tolling of his 28 U.S.C. § 2254 habeas petition based
on the state court’s statements after trial. It is to this
question we now turn.
II.
“We review de novo the dismissal of a habeas
petition as untimely.” Spottsville v. Terry, 476 F.3d
1241, 1243 (11th Cir. 2007). We review the district
court’s factual findings for clear error. Thompson v.
4

Sec’y Dep’t of Corr., 595 F.3d 1233, 1235 (11th Cir.
2010) (per curiam).
III.
The Antiterrorism and Effective Death
Penalty Act (“AEDPA”) includes a one-year statute of
limitations for all state prisoners seeking to file
federal habeas petitions. 28 U.S.C. § 2244(d)(1). The
clock begins running from “the date the conviction
becomes final by the conclusion of direct review or
the expiration of the time for seeking such review.”
Spottsville, 476 F.3d at 1243 (quotation marks
omitted). In this case, the statute of limitations
began running on March 15, 2010—the last day
Rutland could have moved for reconsideration of the
state appellate court’s decision to affirm his
convictions on direct appeal or given notice of intent
to apply for certiorari with the Georgia Supreme
Court. See O.C.G.A. § 1-3-1(d)(3); Ga. Sup. Ct. R.
38(1); Ga. R. App. Ct. 37(b).
Rutland therefore had until March 15, 2011 to
file his federal habeas petition, although the time
would have been tolled for any “time during which a
properly filed application for State post-conviction or
other collateral review is pending.” Spottsville, 476
F.3d at 1243 (alteration adopted) (quoting 28 U.S.C.
§ 2244(d)(2)). Rutland did not seek state habeas
relief until 2013 and waited until 2016 to seek
federal habeas relief. This filing rendered his federal
filing untimely under § 2244(d) unless equitable
tolling applies.
“Equitable tolling can be applied to prevent
the application of AEDPA’s statutory deadline when
extraordinary circumstances have worked to prevent
5

an otherwise diligent petitioner from timely filing his
petition.” Id. At 1245 (quotation marks omitted).
Such extraordinary circumstances can take the form
of misleading instructions from the state court, see
id. at 1245-46; attorney abandonment, see Maples v.
Thomas, 565 U.S. 266, 282-83, 132 S. Ct. 912, 923-24
(2012); or “serious attorney misconduct” amounting
to abandonment, Brown v. Sec’y, Dep’t of Corr., 750
F. App’x 915, 929 (11th Cir. 2018). The critical
inquiry is whether extraordinary circumstances
beyond the petitioner’s control have prevented him
from adhering to AEDPA’s one-year statute of
limitation. Maples, 565 U.S. at 924, 132 S. Ct. at 283.
Rutland primarily takes issue with the district
court’s finding that the trial court’s statements were
not “affirmatively misleading” and that he therefore
failed to establish an extraordinary circumstance
that would warrant equitable tolling. Rutland argues
that by saying he had four years to file “a” habeas
petition rather than a state habeas petition, the trial
court affirmatively misled him into thinking that he
had four years to file any habeas petition—be it state
or federal. There is some merit to his position.
Indeed, even the state seems to concede that the trial
court’s instructions were “confusing.” The state
nonetheless argues that Spottsville distinguishes
between statements that are merely “confusing” and
those that are affirmatively misleading. We need not
and do not adopt the state’s reasoning.
Even assuming equitable tolling applies, the
state is correct that Rutland’s petition is untimely.
Rutland may have been lulled into inaction by the
trial court’s misleading instructions, but his current
counsel should not have been. Present counsel was
hired in November 2012. From that point forward, it
6

was counsel’s experience and training—and not
Rutland’s—that guided Rutland’s habeas
proceedings. The state is therefore correct that the
period for equitable tolling would have lapsed the
moment Rutland procured the assistance of counsel,
which happened no later than November 30, 2012.
Cf. Torres v. Long, 527 F. App’x 652, 654 n.1 (9th Cir.
2013) (unpublished) (per curiam) (“Because
petitioners are not entitled to equitable tolling on the
basis of language abilities once they have assistance
from a translator, we would be on solid ground to
presume any entitlement to equitable tolling ended
no later than December 10, 2004 [the day the
petitioner filed his second state court petition with a
translator’s assistance.].” (emphasis added and
citation omitted)).
Using November 30, 2012 as the new start
date for AEDPA’s one-year statute of limitations,
Rutland had until November 30, 2013 to file his
federal habeas petition. By our count, 321 days
passed before he filed a state habeas petition on
October 17, 2013, which triggered statutory tolling
until the conclusion of his state habeas proceedings.
See 28 U.S.C. § 2244(d)(2). The state habeas
proceedings concluded on July 6, 2015, which was
the date the Georgia Supreme Court denied
Rutland’s motion to reconsider the court’s denial of
his certificate of probable cause. At that point,
Rutland had 45 days left of his one-year period to file
his federal habeas petition. However, Rutland,
represented by present counsel, filed his federal
habeas petition 317 days later on May 18, 2016—well
beyond the 45 days he had remaining. Thus, even
with the benefit of equitable tolling, Rutland’s
habeas petition was indisputably untimely and
properly dismissed.1
7

AFFIRMED.
____________________________
1

In order for Rutland’s petition to be timely, he would
need another basis for equitable tolling to cover either the time
before counsel filed his state habeas petition or after. He has
not offered any such basis here.

8

Case 17:13226

Date Filed: 07/17/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_____________________________________
No. 17-13226-JJ
______________________________________
SHAWN C. RULTAND,
Petitioner-Appellant,
versus
WARDEN, SMITH STATE PRISON
Respondent-Appellee
______________________________________
Appeal from the United States District Court
For the Middle District of Georgia
_______________________________________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON, MARTIN, and HULL, Circuit
Judges.
PER CURIAM:
The Petition(s) for Rehearing are DENIED and no
Judge in regular active service on the Court having
requested that the Court be polled on rehearing en

9

banc (Rule 35, Federal Rules of Appellate Procedure),
the Petition(s) for Rehearing En Banc are DENIED.
ENTERED FOR THE COURT:
/s/ Beverly B. Martin
UNITED STATES CIRCUIT JUDGE
ORD-42

10

Case 17:13226

Date Filed: 10/17/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_____________________________________
No. 17-13226-J
______________________________________
SHAWN C. RULTAND,
Petitioner-Appellant,
versus
WARDEN, SMITH STATE PRISON
Respondent-Appellee
______________________________________
Appeal from the United States District Court
For the Middle District of Georgia
_______________________________________
ORDER:
Shawn Rutland is a Georgia prisoner serving a
sentence of life imprisonment plus twenty years. Mr.
Rutland filed a counseled 28 U.S.C. § 2254 petition
for a writ of habeas corpus, raising three claims of
ineffective assistance of trial counsel. The state
moved to dismiss Mr. Rutland’s petition as untimely.
The District Court granted the state’s motion,
dismissed Mr. Rutland’s petition, and denied him a
certificate of appealability (“COA”). Mr. Rutland now

11

seeks a COA from this Court. For the reasons that
follow, Mr. Rutland’s request for a COA is granted.
I.
After his conviction and sentencing on
December 5, 2007, Mr. Rutland filed two appeals. His
conviction and sentence were ultimately affirmed by
the Georgia Court of Appeals on March 3, 2010. Over
three years later, on October 17, 2013, Mr. Rutland
filed a counseled state application for a writ of
habeas corpus, claiming ineffective assistance of
counsel. On February 2, 2015, after an evidentiary
hearing, the Superior Court denied Mr. Rutland
state habeas relief. On June 1, 2015, the Supreme
Court of Georgia denied Mr. Rutland a certificate of
probable cause to appeal the denial of his state
habeas corpus petition. Mr. Rutland moves for
reconsideration, and the motion was denied on July 6,
2015.
On May 18, 2016, Mr. Rutland filed a
counseled 28 U.S.C. § 2254 petition, raising three
claims of ineffective assistance of trial counsel. The
state moved to dismiss on the ground that Mr.
Rutland’s petition was untimely because he did not
file it within one year of when his convictions became
final and because statutory and equitable tolling did
not apply. In response, Mr. Rutland said that he was
entitled to equitable tolling and that the statute of
limitations and tolling provisions of the
Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”) violated his due process rights. Mr.
Rutland said that he had been diligent in pursuing
his rights and that the state trial court misled him
by telling him that he had four years in which to file
any type of petition for habeas relief and not telling
12

him that he had only one year to file a federal habeas
petition.
A Magistrate Judge issued a report and
recommendation (“R&R”) recommending that Mr.
Rutland’s petition be dismissed as untimely. The
Magistrate Judge calculated that Mr. Rutland had
one year from March 15, 2010, when the period for
filing an application for writ of certiorari to the
Supreme Court of Georgia passed, to file a § 2254
petition. Mr. Rutland did not file a state application
for a writ of habeas corpus until October 17, 2013.
The Magistrate Judge concluded that the limitations
period had passed and that Mr. Rutland could not s
how that statutory or equitable tolling was
warranted. The Magistrate Judge also concluded
that application of AEDPA’s one-year limitations
period to Mr. Rutland’s § 2254 petition was
constitutional. The District Court adopted the R&R,
dismissed the § 2254 petition as untimely, and
denied Mr. Rutland a COA. Mr. Rutland now seeks a
COA from this Court.
II.
In his motion for a COA, Mr. Rutland says
that the “trigger date” for the AEDPA statute of
limitations and tolling provisions violate his due
process rights under the Fifth and Fourteenth
Amendments because they conflict with his state
post-conviction rights in a way that deprives him of
the ability to seek federal habeas relief. He also says
that he is entitled to equitable tolling based on the
misleading advice of the state trial court that led him
to believe that he had four years to seek habeas relief.

13

To obtain a COA, a movant must make “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). When the District
Court has denied a habeas petition on procedural
grounds, the movant must show that jurists of
reason would find debatable (10 whether the motion
states a valid claim of the denial of a constitutional
right, and (2) whether the District Court was correct
in its procedural ruling. Slack v. McDaniel, 529 U.S.
473, 484, 120 S. Ct. 1595, 1604 (2000).
The AEDPA imposes a one-year statute of
limitations for filing a § 2254 petition that begins to
run from the latest of four possible events. 28 U.S.C.
§ 2244(d)(1). Here, the relevant event is “the date on
which the judgment of conviction became final by the
conclusion of direct review or the expiration of the
time for seeking such review.” Id. § 2241(d)(1)(A).
Statutory tolling allows state prisoners to toll the
limitations period while state post-conviction actions
are pending. 18 U.S.C. § 2244(d)(2). To toll the
limitations period under § 2242(d)(2), a state
prisoner must properly file an application for state
post-conviction or collateral relief. See id. And a
state court petition filed after the expiration of the
federal limitations period cannot toll that period.
Tinker v. Moore, 255 F.3d 1331, 1333 (2001). The
AEDPA limitations period also can be equitably
tolled if a petitioner shows that: (i) he has been
pursuing his right diligently; and (ii) some
extraordinary circumstance stood in his way and
prevented timely filing. Holland v. Florida, 560 U.S.
631, 649, 130 S. Ct. 2549, 2562 (2010).
The District Court correctly determined that
Mr. Rutland’s § 2254 petition was not subject to
statutory tolling. The Georgia Court of Appeals
14

affirmed Mr. Rutland’s convictions and sentence on
March 3, 2010 and Mr. Rutland’s convictions became
final on March 15, 2010, when his opportunity to
petition for certiorari to the Supreme Court of
Georgia passed. See Ga. Sup. Ct. Rule 38. Mr.
Rutland did not file his state post-conviction motion
until October 17, 2013, more than one year after his
convictions became final. As a result his state
application for collateral review did not toll the
already expired AEDPA’s limitations period. See 28
U.S.C. § 2244(d)(2); Moore, 321 F.3d at 1381.
Mr. Rutland says that he is entitled to
equitable tolling because the sentencing court misled
him about the limitations period for collateral review.
When he was sentenced, the Superior Court told Mr.
Rutland as follows:
Judge Stoddard: You have the right to
file a habeas corpus as to this sentence,
and it has to be filed within four years
of the date the conviction becomes final,
either from direct review or sentence
review, but you have four years to file a
habeas corpus. Have you discussed that
with him as well.
Mr. Waller: Yes, Your Honor.
The Superior Court never clarified that the four-year
limitation period to which he referred was that for
state habeas petitions only. And Mr. Waller, Mr.
Rutland’s trial counsel, indicated at most that he
discussed a four year limitations period with Mr.
Rutland. The record does not shows that Mr. Waller
ever clarified that the Superior Court’s comments,
either in court or in later advice. Mr. Rutland says
15

the Superior Court’s instruction was “misleading and
failed to adequately advise him of the time allowed
by law for contesting his convictions and sentences
by means of habeas corpus.”
Of course, when the Superior Court made the
allegedly misleading comments, Mr. Rutland had
counsel. And the Supreme Court has said that
“[e]xplaining the details of federal habeas procedure
and calculating statutes of limitations are tasks
normally and properly performed by trained counsel
as a matter of course.” Plier v. Ford, 542 U.S. 225,
231, 124 S. Ct. 2441, 2446 (2004). Circuit precedent
says that an attorneys’ failure to inform his client of
AEDPA’s limitations period is insufficient to
establish equitable tolling. Hutchinson v. Florida,
677 F.3d 1097, 1100 (11th Cir. 2012).
However, when the limitations period expired,
Mr. Rutland was uncounseled. This Court has said
that pro se habeas petitioners are charged with
knowing the AEDPA limitations period. Outler v.
United States, 485 F.3d 1273, 1282 n. 4 (11th Cir.
2007). Here, however, the state trial court itself
provided arguably misleading and certainly
incomplete legal advice to Mr. Rutland about the
applicable limitations period. This Court has held
that equitable tolling may be warranted where a
government official affirmatively misleads a pro se
litigant. Spottsville v. Terry, 476 F.3d 1241, 1245
(11th Cir. 2007). In Spottsville, the state habeas
court incorrectly instructed the pro se petitioner to
file a notice of appeal and a certificate of probable
cause with the superior court clerk, rather than with
the Clerk of the Supreme Court of Georgia. Id. This
Court held that the petitioner relied on the court’s
affirmatively misleading instructions and that
16

“equity requires that [petitioner’s] limitations period
be tolled during the pendency of his attempted
appeal.” Id. Under Spottsville, if a state court misled
a petitioner about the AEDPA limitations period,
equitable tolling may be warranted. The Supreme
Court has warned about the potential perils that
federal district courts face should they provide
similar advice about AEDPA deadlines. Pliler, 542
U.S. at 232-33, 124 S. Ct. at 2447 (warning that
“District judges . . . might err in their calculation of
the statute of limitations and affirmatively
misinform pro se petitioners of their options.”).
Further, the record does not show whether Mr.
Rutland’s trial counsel ever corrected the state
court’s arguably misleading advice before his
representation of Mr. Rutland ended. Under these
circumstances, Mr. Rutland, who was pro se at the
time, may have been under the misimpression
created by the state trial court about the applicable
limitations periods when the AEDPA limitations
period ran.
This Circuit has not previously addressed
whether circumstances like those presented here
warrant equitable tolling. This Court finds that
reasonable jurists could debate whether equitable
tolling is warranted in light of the state trial court’s
instruction to petitioner that he had “four years to
file a habeas corpus.”2
2

Mr. Rutland also challenged AEDPA’s one-year limitations
period as a violation of due process. Although many courts and
commentators have criticized AEDPA’s limitations period, this
Court is not aware of any cases that conclude it violates due
process. On a similar challenge, the Eleventh Circuit has
previously ruled that, “as a general matter, the § 2244(d)
limitation period does not render the collateral relief ineffective
or inadequate to test the legality of detention, and therefore is

17

Under Slack, Mr. Rutland must also show that
jurists of reason would find debatable whether his §
2254 motion states a valid claim for the denial of a
constitutional right. Thus, for this prong, the
question is whether reasonable jurists would find it
at least debatable that the Georgia courts’ rejection
of Mr. Rutland’s Sixth Amendment claim for
ineffective assistance of counsel was contrary to or
involved an unreasonable application of clearly
established law, as determined by the U.S. Supreme
Court. See Lambrix v. Sec’y, DOC, 872 F.3d 1170,
1180 (11th Cir. 2017). At this stage, neither the
record of Mr. Rutland’s state criminal trial nor the
record of his state collateral review proceedings,
besides certain orders, are in the record for his §
2254 motion. The allegations in Mr. Rutland’s § 2254
motion are therefore accepted as true. See Franklin v.
Hightower, 215 F.3d 1196, 1200 (11th Cir. 2000). Mr.
Rutland therefore satisfies Slack’s second prong. See
Id.
As a result, the Court GRANTS a COA
on the following question:
Whether the state trial court’s
instruction that petitioner has “four
years to file a habeas corpus”
affirmatively misled petitioner such
that it qualifies as an “extraordinary

not an unconstitutional suspension of the writ of habeas
corpus.” Tinker v. Moore, 255 F.3d 1331, 1333 (11th Cir. 2001)
(quoting Wyzykowski v. Dep’t of Corr., 226 F.3d 1213, 1217
(11th Cir. 2000)). Mr. Rutland does not merit a COA on his
claim that the AEDPA limitations period violates his due
process rights.

18

circumstance” warranting equitable
tolling.

/s/ Beverly B. Martin
UNITED STATES CIRCUIT JUDGE

19

Case 5:16-cv-00182-MTT-CHW Doc. 15
Filed 06/16/17
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
SHAWN C. RUTLAND,

*

Petitioner,

*

v.

* Case No. 5:16-CV-182

WARDEN STANLEY
WILLIAMS,

*

Respondent.

*

_____________________________
JUDGMENT
Pursuant to this Court’s Order dated June 16,
2017, having accepted the recommendation of the
United States Magistrate Judge, in its entirety,
JUDGMENT is hereby entered dismissing this
action. A certificate of appealability is denied.
This 16th day of June, 2017.
David W. Bunt, Clerk

s/ Gail G. Sellers, Deputy Clerk

20

Case 5:16-cv-00182-MTT-CHW Doc. 14
Filed 06/16/17
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION

SHAWN C. RUTLAND,

*

Petitioner,

*

v.

* Case No. 5:16-CV-182

WARDEN STANLEY
WILLIAMS,

*

Respondent.

*

_____________________________
ORDER
Before the Court is the Recommendation (Doc.
12) of U.S. Magistrate Judge Charles H. Weigle. The
Magistrate Judge recommends the Court grant the
Respondent’s Motion to Dismiss (Doc. 9) the
Petitioner’s § 28 U.S.C. 2254 habeas corpus petition
for failure to comply with the one-year statute of
limitations imposed by the Antiterrorism and
Effective Death Penalty Act (AEDPA), 28 U.SC. §
2244(d). Doc. 12 at 1. The Petitioner has objected to
the Recommendation (Doc. 13), specifically the
Magistrate Judge’s determination that the Petitioner
has not established “extraordinary circumstances” to
justify equitable tolling and that the application of
AEDPA’s one-year statute of limitations does not
21

infringe on the Petitioner’s Fifth Amendment due
process rights. Doc. 13 at 1, 4. The Court has
performed a de novo review of the portions of the
Recommendation to which the Petitioner objects, and
the Court accepts and adopts the findings,
conclusions, and recommendations of the Magistrate
Judge. The Recommendation is ADOPTED as
amended and made the order of this Court.
The Court agrees with and adopts the Magistrate
Judge’s finding that the Petitioner did not establish
an “extraordinary circumstance” to warrant
equitable tolling. Doc. 12 at 8. The trial judge’s
instructions were not “affirmatively misleading” and,
further, any potential confusion on the Petitioner’s
part was mitigated by the fact that he was
represented by counsel at the time. As the
Magistrate Judge pointed out, the Petitioner’s trial
counsel inf act stated that he discussed the statute of
limitations with the Petitioner. Doc. 11-1 at 4.
Nothing else in the record corroborates that
Petitioner’s trial counsel properly explained the
statute of limitations issue or establishes whether
trial counsel worked to clarify any misunderstanding
on the part of the Petitioner. But even if counsel
failed to do so, such a failure does not warrant
equitable tolling. Whether attorney negligence could
rise to a level to qualify as an “extraordinary
circumstance” is unclear.3 However, even if it could,
3

The Recommendation states that “attorney negligence,
however gross or egregious, does not qualify as an
extraordinary circumstance for purposes of equitable tolling.”
Doc. 12 at 8 (quoting Spears v. Warden, 605 F. App’x 900, 904
(11th Cir. 2015). However, the accuracy of this statement is
unclear. See generally Cadet v. Fla Dep’t of Corr., 853 F.2d 1216
(11th Cir. 2017). The Supreme Court appeared to move away
from this rigid standard and instead expressed that gross

22

the record does not support anything more than mere
negligence on the part of the Petitioner’s trial
counsel, if that. Moreover, “pro se litigants, like all
others, are deemed to know of the one-year statute of
limitations [for federal habeas petitions]. . . [A]ny
such requirement of actual notice would virtually
eviscerate the statute of limitations.” Outler v.
United States, 485 F.3d 1273, 1282 n.4 (11th Cir.
2007).
Accordingly, the Recommendation (Doc. 12) is
ADOPTED as amended. The Respondent’s Motion

negligence or misconduct—such as an attorney abandoning the
representation of a client—could potentially rise to the level of
an “extraordinary circumstance” warranting equitable tolling of
AEDPA’s statute of limitations. See generally Holland v.
Florida, 560 U.S. 631 (2010) (disapproving of the appeals
court’s rigid standard that attorney negligence could not
warrant equitable tolling as inconsistent with principles of
equity and intimating that negligence that rises above a
“garden variety claim of excusable neglect: may warrant
equitable tolling); but see Cadet, 853 F.2d at 1227 (interpreting
Maples v. Thomas, 565 U.S. 266 (2012), as clarifying Holland to
apply only to instances of attorney abandonment and that
“attorney negligence, even gross or egregious negligence, does
not by itself qualify as an ‘extraordinary circumstance’ for
purposes of equitable tolling”). Here, this distinction is
inconsequential. Even if gross negligence could qualify as an
“extraordinary circumstance,” the record does not support such
gross negligence on the part of the Petitioner’s trial counsel. Cf.
Holland, 560 U.S. at 653-54 (determining that counsel’s failure
to file the petitioner’s petition and to timely inform him that the
state supreme court had decided his case, despite the
petitioner’s attempts to reach his counsel, could potentially
qualify as an “extraordinary circumstance”); see also Lawrence
v. Florida, 540 U.S. 327, 336-37 (2007) (“Attorney
miscalculation is simply not sufficient to warrant equitable
tolling, particularly in the postconviction context where
prisoners have no constitutional right to counsel.”).

23

to Dismiss (Doc. 9) is GRANTED and the Petitioners
§ 2254 petition is DISMISSED.
CERTIFICATE OF APPEALABILITY
This Court can issue a Certificate of
Appealability (COA) only if a petitioner “has made a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). To merit a COA, the
Court must determine “that reasonable jurists could
debate whether (or, for that matter, agree that) the
petition should have been resolved in a different
manner or that the issues presented were adequate
to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003)
(internal quotation marks and citations omitted). If a
procedural ruling is involved, the petitioner must
show “jurists of reason would find it debatable
whether the petition states a valid claim of the
denial of a constitutional right and that jurists of
reason would find it debatable whether the district
court was correct in its procedural ruling.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). The Petitioner
has not made these showings, and accordingly the
COA is DENIED. Additionally, because there are no
non-frivolous issues to raise on appeal, an appeal
would not be taken in good faith. See 28 U.S.C. §
1915(a)(3). Any motion to proceed in forma pauperis
on appeal is therefore also DENIED.
SO ORDERED, this 16th day of June, 2017.

S/ Marc T. Treadwell
MARC T. TREADWELL, JUDGE
UNITED STATES DISTRICT COURT
24

Case 5:16-cv-00182-MTT-CHW Doc. 12
Filed 03/23/17
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION

SHAWN C. RUTLAND,

*
*
Petitioner,
*
*
v.
* Case No. 5:16-CV-182
*
WARDEN STANLEY
* Proceedings Under 28
WILLIAMS,
* U.S.C. § 2254 Before the
* U.S. Magistrate Judge
Respondent.
*
*
_____________________________
REPORT AND RECOMMENDATION
On May 18, 2016, Petitioner Shawn Rutland
filed a federal habeas petition pursuant to 28 U.S.C.
§ 2254. Doc. 1. Respondent filed a Motion to Dismiss
(Doc. 9) on September 13, 2016, alleging that
Petitioner’s habeas petition failed to comply with the
one-year statute of limitations applicable to § 2254
petitions. Doc. 9, p. 2. Petitioner, through counsel,
contends that he is entitled to equitable tolling and
that the Antiterrorism and Effective Death Penalty
Act (“AEDPA”), 28 U.S.C. § 2244(d), is
unconstitutional as it violates Petitioner’s due
process rights. Doc. 11. Because Petitioner’s federal
habeas petition failed to follow the one-year statute
of limitations pursuant to AEDPA, it is
25

RECOMMENDED that Respondent’s Motion to
Dismiss be GRANTED and Petitioner’s § 2254
petition be DISMISSED.
I.

Procedural History

On December 5, 2007, Petitioner was convicted of
armed robbery, hijacking of a motor vehicle, and
aggravated assault in Bibb Superior Court. Doc. 11,
p. 1. Petitioner was sentenced to life imprisonment
plus an additional twenty years. Id. at 1-2. The
following dialog occurred during Petitioner’s
sentencing hearing:
Judge Stoddard: You have the right to file a habeas
corpus as to this sentence, and it has to be filed
within four years of the date the conviction becomes
final, either from direct review or from any other
kind of delay because of appellate review or sentence
review, but you have four years to file a habeas
corpus. Have you discussed that with him as well?
Mr. Waller: Yes, Your Honor.
Doc. 11-1, p. 4. Petitioner appealed this conviction to
the Georgia Court of Appeals which remanded
Petitioner’s case on March 5, 2009, because the trial
court applied an incorrect legal standard regarding
the weight of the evidence. Doc. 9-1, p. 1. Following
the remand, the trial court applied the appropriate
legal standard and further held that the original
verdicts were not against the weight of the evidence.
Id. The court of appeals affirmed the trial court’s
ruling on March 3, 2010. Id. Following the court of
appeals’ decision, Petitioner did not move for
reconsideration or apply for certiorari to the
26

Supreme Court of Georgia during the following tenday period. Doc. 11, p. 2.
Petitioner obtained his current counsel in
November of 2012, and on October 17, 2013,
Petitioner filed a state habeas petition in Tattnall
County, Doc. 11, pp. 2-3. This state petition alleged
five grounds of ineffective assistance of counsel. Id.
Following an evidentiary hearing in April of 2014,
the state habeas petition was denied on February 2,
2015. Doc. 1-1. Petitioner filed a Certificate of
Probable Cause (“CPC”) in the Supreme Court of
Georgia, which was denied on June 1, 2015. The
Supreme Court of Georgia also denied Petitioner’s
Motion for Reconsideration on July 6, 2015. Doc. 1-2,
p. 1-3.
Following the denial of his state habeas
petition at the Supreme Court of Georgia, Petitioner
filed his current federal habeas petition on May 18,
2016. Doc. 1. Petitioner has raised three claims of
ineffective assistance of counsel that were previously
raised in the state habeas petition. Id. On September
13, 2016, Respondent filed a Motion to Dismiss (Doc.
9-1), arguing that Petitioner had failed to file his
federal habeas petition within the one-year statute of
limitations. Doc. 9-1.
II.

AEDPA’s Limitations Period

AEDPA imposes a one-year limitations period on
petitions for habeas corpus relief under 28 U.S.C. §
2254. See 28 U.S.C. § 2244(d)(1). Ordinarily, as here,
AEDPA’s one-year limitations period runs from “the
date on which the judgment becomes final by the
conclusion of direct review or the expiration of the
time for seeking such review.” 28 U.S.C. §
27

1144(d)(1)(A). A petitioner must also exhaust state
court remedies before filing a 28 U.S.C. § 2254
habeas corpus petition in federal court. O’Sullivan v.
Boerckel, 526 U.S. 838, 848 (1999); Vazquez v. Sec’y,
Florida Dep’t of Corr., 827 F.3d 964, 966 (11th Cir.
2016); 28 U.S.C. § 2254(b)(1)(A) (“An application for
a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court
shall not be granted unless it appears that [ . . . ] the
applicant has exhausted the remedies available in
the courts of the State.”) To exhaust state court
remedies, a petitioner must give a state court affair
opportunity to review the habeas corpus claims and
provide any necessary relief. O’Sullivan, 526 U.S. at
848; McNair v. Campbell, 416 F.3d 1291, 1302 (11th
Cir. 2005); O.C.G.A. § 9-14-52.
Although Petitioner properly exhausted his
state court remedies before filing his present federal
habeas petition, Petitioner failed to file his federal
habeas petition within the one-year statute of
limitations pursuant to AEDPA. Petitioner was
convicted in Bibb Superior Court on December 5,
2007, and his conviction was ultimately affirmed by
the Georgia Court of Appeals on March 3, 2010. Doc.
9-1, p. 1. From March 3, Petitioner had ten days in
which to file an application for writ of certiorari to
the Supreme Court of Georgia. See Ga. Sup. Ct. R.,
Rule 38. Petitioner chose not to file an application
and judgment in his case became final on Monday,
March 15, 2010, the expiration of the period to seek
further direct review of his conviction. Doc. 9-1, p. 1;
28 U.S.C. § 2244(d)(1)(A). From March15, 2010,
Petitioner had one year, pursuant to AEDPA, to file a
federal habeas petition. 28 U.S.C. § 2244(d)(1).
Petitioner did not file a federal petition during this
28

year and did not file his state habeas action until
October 17, 2013.
Petitioner’s state habeas petition does not
excuse Petitioner’s untimely federal petition. The
one-year statute of limitations may be statutorily
tolled while properly filed state post-conviction
habeas petitions are pending. § 2244(d)(2). The time
period while the proper state habeas petitions are
pending will be tolled and will not be counted against
the one-year statute of limitations under AEDPA. If
a state habeas petition is filed more than a year after
the finality of a petitioner’s conviction, statutory
tolling will not apply because there is no time left to
be tolled. Tinker v. Moore, 255 F.3d 1331 (11th Cir.
2001); Webster v. Moore, 199 F.3d 1259 (11th Cir.
2000). Here, Petitioner filed his state habeas corpus
petition on October 16, 2013, over one-year after the
finality of his conviction. Doc. 11, pp. 2-3. Because
Petitioner’s state habeas petition was filed after the
one-year statute of limitations had run, statutory
tolling is not applicable in this case. Accordingly,
Respondent is entitled to dismissal.
III.

Equitable tolling

Although the instant federal habeas petition is
untimely, District Courts may equitably toll
AEDPA’s limitations period where a petitioner shows
“(1) that he has been pursuing his rights diligently,
and (2) that some extraordinary circumstance stood
in his way.” See Holland v. Florida, 560 U.S. 631,
645, 649 (2010). Courts must consider equitable
tolling on a case-by-case basis and the petitioner has
the burden of establishing his entitlement to
equitable tolling. See Holland, 560 U.S. at 649-50;
Cole v. Warden, Georgia State Prison, 768 F.3d 1150,
29

1158 (11th Cir. 2014); Hutchinson v. Florida, 677
F.3d 1097, 1098-99 (11th Cir. 2012). A petitioner
need not exercise “maximum feasible diligence” nor
exhaust every possible option, but a petitioner must
exercise reasonable diligence. Holland, 560 U.S. at
653; Cole, 768 F.3d at 1158; see Smith v. Comm’r,
Ala. Dep’t of Corr., 703 F.3d 1266, 1271 (11th Cir.
2012) (per curiam).
An extraordinary circumstance does not
depend on “how unusual the circumstance alleged to
warrant tolling is among the universe of prisoners,
but rather how severe an obstacle it is for the
prisoner endeavoring to comply with AEDPA’s
limitations period.” Cole, 768 F.3d at 1158 (quoting
Diaz v. Kelly, 515 F.3d 149, 154 (2d Cir. 2008)). To
warrant equitable tolling, the “extraordinary
circumstances must be beyond the control of the
petitioner and unavoidable even with diligence.”
Lawrence v. Florida, 421 F.3d 1221, 1226 (11th Cir.
2005), aff’d, 549 U.S. 327 (2007) (quoting Sandvik v.
United States, 177 F.3d 1269, 1271 (11th Cir. 1999)).
Courts must only apply equitable tolling in “rare and
exceptional circumstances, such as when the State’s
conduct prevents the petitioner from timely filing.”
Lawrence, 421 F.3d at 1226.
Equitable tolling may be applicable where a
petitioner is misled by the court, but only by an
affirmative misleading. Spottsville v. Terry, 476 F.3d
1241, 1245 (11th Cir. 2007); see also Pliler v. Ford,
542 U.S. 225, 235 (2004) (O’Connor, J., concurring)
(“[I]f the petitioner is affirmatively misled, either by
the court or by the State, equitable tolling might well
be appropriate.”). For example, in Spottsville, the
Eleventh Circuit Court of Appeals held that
equitable tolling was applicable because the
30

petitioner had been misled by the affirmative actions
of the court. 476 F.3d at 1245-46. The court had
erroneously instructed the petitioner to file a habeas
petition in superior court instead of a direct appeal to
the Supreme Court of Georgia. Id. The Petitioner’s
habeas petition was ultimately denied for “having
been filed erroneously in the habeas court.”
Spottsville, 476 F.3d at 1243. The circuit court held
that the petitioner had followed the habeas court’s
instructions to the letter and it was unreasonable for
a “pro se litigant to second-guess or disregard an
instruction in a written order of a court.” Id. at 1245.
Excusable neglect of a petitioner’s counsel is
not an extraordinary circumstance to warrant
equitable tolling. Holland, 560 U.S. at 651-52; Butler
v. Sec’y, Florida Dep’t of Corr., 621 F. App’x 604, 60607 (11th Cir. 2015). In Butler, the Eleventh Circuit
held that a miscalculation by a petitioner’s counsel
was not the “sort of mistake” to warrant equitable
tolling. 621 F. App’x at 606. The counsel’s actions
were viewed as excusable negligence and not an
extraordinary circumstance, and the court further
held that a counsel’s missing of a deadline does not
lead to equitable tolling. Id. at 606-07.
Petitioner cannot establish that he has
experienced an extraordinary circumstance that
warrants tolling. Following Petitioner’s conviction in
Bibb County Superior Court in 2007, Petitioner was
represented by counsel at his sentencing hearing
before that same court. Doc. 11-1, pp. 3-4. According
to the sentencing hearing transcripts before this
Court, Petitioner and his then counsel were informed
they had four years in which to file a habeas petition.
Id. at 4. Petitioner’s then counsel affirmed the
superior court judge’s question that he, the counsel,
31

had discussed the habeas petition timeline with
Petitioner. Id.
It is clear from the sentencing transcript that
the superior court judge was referring to the timeline
to file a state habeas petition. The sentencing judge
did not advise Petitioner or his then counsel of the
one-year limitation of the AEDPA. Additionally, the
sentencing judge did not clarify that the four-year
limitation he was referring to only applied to the
Petitioner’s state habeas petition and not a federal
habeas petition.
The sentencing judge’s statements were not an
affirmative misleading of Petitioner. The sentencing
judge did not advise Petitioner of an inaccurate
statute of limitations for a habeas petition, nor was
he required to clarify that the timeline applied only
to state petitions. The court did not offer Petitioner
false or inaccurate information, as distinguished
from the court’s actions in Spottsville. The
sentencing judge merely informed Petitioner of the
state habeas timeline.
Petitioner cannot establish an extraordinary
circumstance based on the fact that he was unaware
of the statute of limitations for federal habeas
petitions under AEDPA. Courts in this circuit have
consistently held that “all litigants, including pro se
litigants, are deemed to know the one-year limitation
for federal petitions and are not allowed to rely on
their ‘lack of legal education as an excuse for a
failure to file in a timely fashion.’” Outler v. United
States, 485 F.3d 1273, 1282 n. 4 (11th Cir. 2007);
Whitehead v. Crickmar, 2016 WL 774309, at *2 (M.D.
Ga. Nov. 22, 2016), report and recommendation
adopted, 2017 WL 125032 (M.D. Ga. Jan. 12, 2017)
32

(quoting Spears v. Warden, 605 F. App’s 900, 903
(11th Cir. 2015)); Kelly v. McLaughlin, 2016 WL
3460386, at *1 (M.D. Ga. June 21, 2016). Petitioner’s
ignorance or lack of knowledge of the AEDPA oneyear statute of limitations does [sic] create an
extraordinary circumstance.
Furthermore, Petitioner was represented by
counsel during the sentencing hearing. The excerpt
from the sentencing hearing shows that Petitioner’s
then counsel affirmed that he had discussed the
habeas timelines with Petitioner. Petitioner, through
his original counsel, then won an appeal before the
Georgia Court of Appeals and Petitioner’s case was
remanded to the trial court. Doc. 9-1, p. 1. Upon the
trial court’s upholding of its original verdict,
Petitioner’s counsel appealed the conviction to the
court of appeals for a second time. Id. On March 3,
2010, the court of appeals affirmed the trial court’s
ruling and Petitioner’s counsel chose not to appeal to
the Supreme Court of Georgia.
There is no evidence that, during the postconviction appeals process from 2007 to 2010,
Petitioner’s trial counsel informed or advised
Petitioner of the one-year limitations for federal
petitions. Two and a half years was ample time for
trial counsel to clarify any alleged
misunderstandings Petitioner had regarding a
habeas petition time limitation. Although counsel’s
failure to advise Petitioner of the AEDPA limitations
or the counsel’s miscalculation regarding the AEDPA
limitations period may be viewed as a mistake, “that
sort of mistake ‘does not warrant equitable tolling.’”
Butler, 621 F. App’x at 606-07 (quoting Holland, 560
U.S. at 651-52 (explaining that a “garden variety
claim of excusable neglect, such as a simple
33

miscalculation that leads a lawyer to miss a filing
deadline, does not warrant equitable tolling”)).
Additionally, “attorney negligence, however gross or
egregious, does not qualify as an ‘extraordinary
circumstance’ for purposes of equitable tolling.”
Spears v. Warden, 605 F. App’x 900, 904 (11th Cir.
2015) (quoting Cadet v. Fla. Dep’t of Corr., 742 F.3d
473, 481 (11th Cir. 2014)).
Petitioner has not established an
extraordinary circumstance to warrant equitable
tolling. The statement in question by the sentencing
judge was not an affirmative misleading of
Petitioner. Additionally, the failure of Petitioner’s
trial counsel to inform Petitioner of the one-year
limitation, which every litigant is presumed to know,
does not warrant equitable tolling. As an
extraordinary circumstance was not established, the
Court need not examine whether Petitioner pursued
his rights with due diligence. In sum, Petitioner’s
federal habeas petition was untimely and he cannot
excuse dismissal.
IV.

Constitutionality of AEDPA

Petitioner has also challenged the
constitutionality of the one-year limitation period
imposed by the AEDPA. Doc. 11, pp. 8-15. Petitioner
argues that AEDPA imposes a significantly shorter
period for habeas petitions than under Georgia law.
Id. at 8 (comparing AEDPA’s one-year limitation to
Georgia law allowing four years). Petitioner has
failed to cite, and the Court has similarly not found,
any legal authority concluding that AEDPA’s oneyear limitation is unconstitutional as an
infringement on Fifth Amendment due process
rights. The Eleventh Circuit has consistently held
34

that the one-year limitation of AEDPA does not
constitute an unconstitutional suspension of the
habeas writ. Tinker v. Moore, 255 F.3d 1331, 1334
(11 th Cir. 2001); Wyzykowski v. Dep’t of Corrections,
226 F.3d 1213, 1217 (11th Cir. 2000) (“as a general
matter, the § 2244(d) limitation period does not
render the collateral relief ineffective or inadequate
to test the legality of detention, and therefore is not
an unconstitutional suspension of the writ of habeas
corpus.”).
The Court recognizes that Petitioner appears to
have fallen victim to a “federal time trap.” See
Stover, 2016 WL 397633, at *5. Because Georgia has
a much longer statute of limitations for state habeas
petitions, Petitioner’s plight is not uncommon.
Although the result may “seem harsh,” it is
consistent with the intentions of Congress, and
accepting Petitioner’s unconstitutionality argument
would “turn the one-year limitations period on its
head.” See Cole v. Chatman, 2013 WL 12098748, at
*7 (N.D. Ga. May 8, 2013). AEDPA’s purpose was not
to punish habeas petitioners with grueling time
limitations, but rather promote the filing of federal
habeas petitions quickly. The exhaustion
requirements and statute of limitations “encourage
litigants first to exhaust all state remedies and then
to file their federal habeas petitions as soon as
possible.” Lawrence v. Florida, 549 U.S. 327, 332-33
(2007) (quoting Duncan v. Walker, 533 U.S. 147, 179
(2001)).
Additionally, AEDPA provides avenues for
untimely petitions to be heard. Courts in this circuit
have held that the “[t]he essence of due process is an
opportunity to be heard at a meaningful time and in
a meaningful way.” Heredia v. Sec’y, Florida Dep’t of
35

Corr., 566 F. App’x 853, 856 (11th Cir. 2014); Reams
v. Irvin, 561 F.3d 1258, 1263 (11th Cir. 2009); Stover
v. Johnson, 2016 WL 397633, at *6 (N.D. Ga. Feb. 1,
2016). As noted above, AEDPA allows equitable
tolling where a petitioner has exerted due diligence
and an extraordinary circumstance is present.
Holland, 560 U.S. at 645-49. Petitioners may also
avoid AEDPA’s one-year limitation where there is
new evidence and a showing of “actual innocence.”
Tinker, 255 F.3d at 1334; Stover, 2016 WL 397633m
at *6. The one-year statute of limitation
notwithstanding, AEDPA “provides a petitioner with
a sufficient opportunity to be heard,” and does not
violate Petitioner’s due process rights. See Tinker,
255 F.3d at 1331.
V.

Conclusion

Petitioner has filed his present § 2254 petition
outside of statute of limitations pursuant to AEDPA.
He has not established an extraordinary
circumstance to warrant equitable tolling, and the
one-year limitation does not violate Petitioner’s due
process rights. Accordingly, it is RECOMMENDED
that Respondent’s Motion to Dismiss (Doc. 9) be
GRANTED and Petitioner’s § 2254 habeas petition
(Doc. 1) be DENIED.
Pursuant to 28 U.S.C. § 636(b)(1), the parties may
serve and file written objections to this
Recommendation, or seek an extension of time to file
objections, WITHIN FOURTEEN (14) DAYS after
being served with a copy thereof. The District Judge
shall make a de novo determination of those portions
of the Recommendation to which objection is made.
All other portions of the Recommendation may be
reviewed for clear error.
36

The parties are further notified that, pursuant to
Eleventh Circuit Rule 3-1, “[a] party failing to object
to a magistrate judge’s findings or recommendations
contained in a report and recommendation in
accordance with the provisions of 28 U.S.C. §
636(b)(1) waives the right to challenge on appeal the
district court’s order based on unobjected-to factual
and legal conclusions if the party was informed of the
time period for objecting and the consequences on
appeal for failing to object. In the absence of a proper
objection, however, the court may review on appeal
for plain error if necessary in the interests of justice.”
SO RECOMMENDED, this 23rd day of March,
2017.

s/ Charles H. Weigle
Charles H. Weigle
United States Magistrate Judge

37

Case 5:16-cv-00182-MTT-CHW Doc. 11
Filed 10/04/16
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
SHAWN C. RUTLAND,
Petitioner,
v.
STANLEY WILLIAMS,
Respondent.

:
:
:
: CIVIL ACTION NO.
:
5:16-CV-182
:
:
:

PETITIONER’S RESPONSE TO MOTION TO
DISMISS
COMES NOW Petitioner Shawn C. Rutland,
through counsel and files this Response to the
Motion to Dismiss filed by Respondent in the abovecaptioned 28 U.S.C. § 2254 habeas corpus action,
respectfully showing the following:
Relevant Facts and Procedural History
Respondent has filed a Motion to Dismiss as
Untimely [Doc. 9] the habeas corpus Petition [Doc. 1]
filed by Petitioner Shawn Rutland (hereafter “Mr.
Rutland”) in the above captioned action. Mr. Rutland
shows the following pertinent facts applicable to the
Motion to Dismiss:
Mr. Rutland was convicted in Bibb Superior
Court on December 5, 2007, of Armed Robbery,
Hijacking of a Motor Vehicle, and Aggravated
38

Assault in criminal case number 07-CR-61701. Mr.
Rutland was sentenced to a term of imprisonment of
life plus twenty years. After pronouncing the
sentence of the court, Senior Judge Mike Stoddard
advised Mr. Rutland as follows: “You have the right
to file a habeas corpus as to this sentence, and it has
to be filed within four years of the date the conviction
becomes final, either from direct review or from any
other kind of delay because of appellate review or
sentence review, but you have four years to file a
habeas corpus.” [Sentencing Transcript, p. 315]. A
copy of this portion of the transcript from Mr.
Rutland’s sentencing hearing is attached to this
Response as Exhibit “A.”
Mr. Rutland thereafter appealed his
convictions and sentences to the Court of Appeals of
Georgia and they were ultimately affirmed on March
3, 2010. Mr. Rutland did not move for
reconsideration or file a notice of intent to apply for
certiorari to the Supreme Court of Georgia during
the following ten-day period.
Having been advised by the trial court that he
had four years from the date his convictions were
deemed final in which to file any kind of habeas
corpus action, Mr. Rutland thereafter hired the
undersigned counsel in November of 2012 to file a
state habeas petition. Mr. Rutland, through counsel,
filed his Application for Habeas Corpus in the
Superior Court of Tattnall County, Georgia, in case
number 2013-SU-HC-68 on October 17, 2013. Mr.
Rutland set forth five separate grounds of ineffective
assistance of trial counsel and appellate counsel in
his habeas petition. Months after an evidentiary
hearing, the habeas court denied the petition on
February 2, 2015.
39

Following the habeas court’s denial of his
petition, Mr. Rutland timely filed a Petition for
Certificate of Probable Cause in the Supreme Court
of Georgia in case number S15H0933. The Supreme
Court denied his Petition by order dated June 1,
2015. Mr. Rutland moved for reconsideration of the
denial of his Petition, and an order was entered
denying his Motion for Reconsideration on July 6,
2015.
Having exhausted his available state court
remedies, Mr. Rutland thereafter filed his Petition
Under 28 U.S.C. § 2254 for Writ of Habeas Corpus
with this Court on May 18, 2016, less than one year
from the conclusion of his state court habeas action.
Mr. Rutland asserted in his § 2254 Petition three of
the grounds previously raised in his state habeas
corpus action. Mr. Rutland did not allege any new
grounds for relief that were not previously litigated
below.
Argument and Citations of Authority
Respondent has moved to have Mr. Rutland’s
petition dismissed as untimely because it was filed
beyond the statute of limitations mandated by the
Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”). As correctly set forth in the Motion
to Dismiss, 28 U.S.C. § 2244(d)(1) provides a oneyear statute of limitation from the date a conviction
is deemed final in which a state prisoner may seek
federal habeas corpus relief. Pursuant to 28 U.S.C. §
2244(d)(1)(A), a conviction is deemed final “the date
on which the judgment became final by the
conclusion of direct review or the expiration of the
time for seeking such review.” AEDPA also
provides a means by which the one-year limitations
40

period may be statutorily tolled. 28 U.S.C. §
2244(d)(2) states that the “time during which a
properly filed application for State post-conviction or
other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted
toward any period of limitation under this
subsection.”
According to the Motion to Dismiss, since Mr.
Rutland’s conviction was deemed final on March 15,
2010, at the conclusion of his direct appeal, he was
required to file his § 2254 habeas corpus action no
later than March 15, 2011, one year from such date.
Respondent further asserts that Mr. Rutland is not
entitled to the statutory tolling provisions of 28
U.S.C. § 2244(d)(2) because he did not file his state
court habeas action until after March 15, 2011, such
that there was no period of time left to toll when the
state petition was filed.
Mr. Rutland does not dispute that the cases
cited by Respondent in the Motion to Dismiss,
including Webster v. Moore, 199 F.3d 1256 (11th Cir.
2000), support the position that the filing of Mr.
Rutland’s state court habeas action on October 17,
2013, did not statutorily toll the deadline for the
filing of his federal habeas petition. The Eleventh
Circuit has interpreted AEDPA such that the filing
of a state habeas petition, even if properly filed
within the time allowed by state law for the filing of
a state court habeas action, will not statutorily toll
the limitations period for filing a § 2254 habeas if the
state habeas petition is filed more than one year
after the conclusion of the direct appeal. Tinker v.
Moore, 255 F.3d 1331 (11th Cir. 2001). The state
habeas petition must be filed before the AEDPA
41

limitations period has expired in order for statutory
tolling to apply. Webster, 199 F.3d at 1299.
Nonetheless, Mr. Rutland shows that his §
2254 habeas corpus action should not be dismissed
(1) because he is entitled to the benefit of “equitable
tolling” in this case and (2) because the statute of
limitations and tolling provisions of AEDPA are
unconstitutional.
(1) Equitable Tolling
Mr. Rutland first shows that he is entitled to
“equitable tolling” of the AEDPA one-year statute of
limitations such that his § 2254 habeas petition
would be deemed timely filed. The United States
Supreme Court has determined that AEDPA’s oneyear statute of limitations may be tolled for
“equitable” reasons. Holland v. Florida, 560 U.S.
631, 645, 130 S. Ct. 2549 (2010). A litigant seeking
equitable tolling due to his untimely filing of a
§ 2254 petition “bears the burden of establishing two
elements: (1) that he has been pursuing his rights
diligently, and (2) that some extraordinary
circumstance stood in his way.” Pace v.
DiGuglielmo, 544 U.S. 408, 418, 125 S. Ct. 1807
(2005). The Eleventh Circuit has described
extraordinary circumstances as circumstances “that
are both beyond his [petitioner’s] control and
unavoidable with diligence." Tinker, 255 F.3d at
1333.
In the case at hand, Mr. Rutland was plainly
instructed by the Tattnall Superior Court at his
sentencing that he had four years from the
conclusion of any direct appeal in which to file any
type of petition for habeas corpus. “You have the
42

right to file a habeas corpus as to this sentence, and
it has to be filed within four years of the date the
conviction becomes final, either from direct review or
from any other kind of delay because of appellate
review or sentence review, but you have four years to
file a habeas corpus.” The trial court did not advise
Mr. Rutland that he had only one year from the date
his conviction became final to file a federal habeas
action. Nor did the trial court instruct Mr. Rutland
that, if he waited more than one year to file his state
court habeas petition, then he would be barred
thereafter by the statute of limitations from filing a §
2254 federal habeas action. The trial court’s
instructions at sentencing were misleading and
failed to adequately advise him of the time allowed
by law for contesting his convictions and sentences
by means of habeas corpus. Having been advised in
such manner, Mr. Rutland was then diligent in
pursing his rights by timely filing both his state
court habeas petition and his petition for certificate
of probable cause with the Georgia appellate court.
The Eleventh Circuit has found equitable
tolling to be warranted in certain cases where a
petitioner was misled by a court or by the state in
connection with the filing of a habeas petition. In
Spottsville v. Terry, 476 F.3d 1241 (11th Cir. 2007),
the Eleventh Circuit reversed the dismissal of a state
prison’s § 2254 petition, based upon misleading
advice given to the petitioner by the state habeas
court. The Circuit Court found as follows: “Because
Spottsville relied on the misleading instructions of
the Superior Court of Tattnell County, equity
requires that Spottsville's limitations period be tolled
during the pendency of his attempted appeal of the
denial of his state habeas petition.” Spottsville, 476
F.3d at 1246. See also, Lawrence v. Florida, 421 F.3d
43

1221, 1226 (11th Cir. 2005) (extraordinary
circumstances warranting equitable tolling include
instances "when the State's conduct prevents the
petitioner from timely filing”); Knight v.
Schofield, 292 F.3d 709, 712 (11th Cir. 2002)
(granting equitable tolling to petitioner misled by the
Clerk of the Supreme Court of Georgia).
Finally, in Pliler v. Ford, 542 U.S. 225, 235,
124 S. Ct. 2441, 2448 (2004), Justice O’Connor stated
in a concurring opinion as follows: "[I]f the petitioner
is affirmatively misled, either by the court or by the
State, equitable tolling might well be appropriate."
The Pliler majority opinion acknowledged that
procedural instructions "run the risk of being
misleading." Pliler, 542 U.S. at 232, 124 S. Ct. at
2446.
Mr. Rutland should be afforded the benefit of
equitable tolling since he relied to his detriment on
misleading information from the trial court
regarding the filing of a habeas corpus action and
that his § 2254 Petition be deemed timely.
(2) Unconstitutionality of AEDPA Statute of
Limitations and Tolling Provisions
Mr. Rutland next asserts that the statute of
limitations and tolling provisions of AEDPA are
unconstitutional as a violation of due process.
Under Georgia state law, a state prisoner may
bring an action for state habeas corpus relief based
upon a violation of his state or federal constitutional
rights generally within four years of his felony
conviction becoming final by the conclusion of direct
review or the expiration of the time for seeking such
44

review. O.C.G.A. § 9-14-42. If a state prisoner
wishes to seek federal habeas corpus relief, he must
first exhaust all remedies available at the state court
level. 28 U.S.C. § 2254(b)(1)(A). Thus, under this
procedure, a state prisoner generally must first
pursue a direct appeal and a state habeas corpus
action before filing a federal habeas corpus action.
Under the current federal law, as mandated by
AEDPA, however, a state prisoner is required to seek
federal habeas relief within one year of the date on
which his conviction became final by conclusion of
the direct review of his conviction or the expiration of
the time for seeking direct review. 28 U.S.C. §
2244(d)(1)(A). Although the one-year clock is tolled
during the time the prisoner’s "properly filed" state
habeas action is pending, as per 28 U.S.C. §
2244(d)(2), the statutory tolling only applies if the
state habeas petition is filed before the AEDPA’s oneyear limitations period has expired. Webster, 199
F.3d at 1299.
In Georgia, therefore, in order for a state
prisoner to be able to seek federal habeas relief based
upon a violation of his constitutional rights, the
prisoner must file his petition for state habeas relief
significantly before the expiration of the four-year
statute of limitations afforded him under Georgia
law. In fact, the prisoner must file his state habeas
petition within the very first year of the conclusion of
his direct appeal, in order for him to still have the
option of seeking federal habeas relief at the
conclusion of his state habeas case. This can be prove
nearly impossible, given the need for the prisoner to
first find and retain state habeas counsel (as Georgia
does not provide appointed counsel for state habeas
corpus actions, see O’Neal v. Caldwell, 231 Ga. 608,
45

203 S.E.2d 191 (1974)) and given the time necessary
for habeas counsel to review the entire trial court
record and appellate record for constitutional error
and to then draft the habeas petition.
The AEDPA statute of limitations is patently
unfair and impinges upon the due process rights of
any state prisoner seeking both state and federal
habeas relief, as such rights are guaranteed by the
due process clause of the Fifth Amendment of the
United States Constitution. U.S. Const. amend. V.
The AEDPA provisions, while requiring a federal
habeas petitioner to first exhaust his state remedies,
restrict the petitioner’s time for filing his state
habeas action as guaranteed by state law. The
AEDPA’s one-year limitations period effectively
overrides any periods of limitation for filing state
habeas corpus actions established by state law. In
Georgia, a state prisoner, at a minimum, is denied
75% of the time guaranteed to him by O.C.G.A. § 914-42 in which to file his state habeas petition, or he
is precluded from seeking any federal habeas relief.
The AEDPA restrictions on state habeas
corpus laws deprive a state prisoner of his
fundamental right to seek state habeas relief in the
time period afforded him by his state legislature.
This deprivation of fundamental rights could be
avoided if the one-year limitations period for filing a
federal habeas petition did not begin running until
the conclusion of the state habeas corpus action,
provided that the state habeas action was timely
filed under state habeas law.
The AEDPA has been criticized in recent years
by various courts and legal scholars, including much
criticism of the law’s strict one-year limitations
46

period for filing a federal habeas action.4 AEDPA
was originally enacted in 1996 in the wake of
terrorist attacks for the primary purpose of deterring
future attacks and limiting the lengthy appeals
process available to death-row inmates. The law was
also designed to “streamline the habeas review
process and render finality to state court convictions"
for all offenders, not just those convicted of acts of
terrorism.5 The authors of AEDPA “sought to
address the rampant ‘abuse of the writ,’ the notion
that prisoners were filing repeated specious petitions
which operated to overwhelm the federal courts.”6
Despite the stated intent of the authors of
AEDPA to curb abuses in the filing of federal habeas
petitions, legal scholars “have been particularly
critical of the statute of limitations provision based
on its lack of support by any clear policy
justification.”7 As they have noted, “there is no
support for the notion that prisoners intentionally
4

See Stephanie R. Hartung, Habeas Corpus for the Innocent, 19
U. Pa. J.L. & Soc. Change 1 (2016); Virginia E. Harper-Ho,
Tolling of the AEDPA Statute of Limitations: Bennett, Walker
and the Equitable Last Resort, 4 Cal. Crim. L. Rev. 1 (2001);
John H. Blume, ADEPA: The Hype and the Bite, 91 Cornell L.
Rev. 259 (2006). Honorable Stephen R. Reinhardt, Circuit
Judge, United States Court of Appeals for the Ninth Circuit,
The Demise of Habeas Corpus and the Rise of Qualified
Immunity, 113 Mich. L. Rev. 1219 (2015); Honorable Alex
Kozinski, Circuit Judge, United States Court of Appeals for the
Ninth Circuit, Preface to Annual Review of Criminal Procedure,
44 Geo. L. J. Ann. Rev. Crim. Proc. iii (2015).
5
Virginia Harper-Ho, Tolling of the AEDPA Statute of
Limitations: Bennett, Walker and the Equitable Last Resort, 4
Cal. Crim. L. Rev. 1 (2001).
6
Stephanie R. Hartung, Habeas Corpus for the Innocent, 19 U.
Pa. J.L. & Soc. Change 1 (2016).
7
Id.

47

delayed their filings prior to the passage of AEDPA.
Nor is there a persuasive argument that convicted
prisoners or their counsel would have any motivation
to do so. . . [N]on-capital petitioners would gain
nothing from intentional delay, which could operate
to extend the prisoner’s sentence.”8
The one-year statute of limitations provision
has also “been criticized as especially burdensome to
pro se litigants, who must undertake the
considerable task of compiling a habeas petition
while incarcerated and without the benefit of legal
counsel. Indeed, it is difficult to comprehend the
congressional purpose behind this provision, given
that prisoners are often uneducated and ill equipped
to advance a complex legal argument.”9
After twenty years of dealing with the harsh
procedural requirements of AEDPA, two Circuit
Judges for the Ninth Circuit Court of Appeals, the
Honorable Stephen Reinhardt and the Honorable
Alex Kozinski, have each recently called for its
demise. They argue that the law is procedurally
unfair and that the Supreme Court’s strict
interpretation of AEDPA renders federal judges
powerless to remedy such procedural unfairness.10
According to Judge Reinhardt in an article he
authored for the Michigan Law Review last year, the
8

Id.
Id.
10
Honorable Stephen R. Reinhardt, Circuit Judge, United
States Court of Appeals for the Ninth Circuit, The Demise of
Habeas Corpus and the Rise of Qualified Immunity, 113 Mich.
L. Rev. 1219 (2015); Honorable Alex Kozinski, Circuit Judge,
United States Court of Appeals for the Ninth Circuit, Preface to
Georgetown Law Journal’s Annual Review of Criminal
Procedure, 44 Geo. L. J. Ann. Rev. Crim. Proc. iii (2015).
9

48

Court has fashioned “a twisted labyrinth of
deliberately crafted legal obstacles that make it as
difficult for habeas petitioners to succeed in pursuing
the writ as it would be for a Supreme Court justice to
strike out Babe Ruth, Joe DiMaggio and Mickey
Mantle in succession.”11
As Judge Reinhardt notes, the “proper
question is, and always should have been, whether
the detainee has a constitutional right to be free.”12
In contrast, the Supreme Court’s interpretation of
AEDPA over nearly the past twenty years has
“fundamentally narrowed the scope of habeas review,
from a fight over the merits of a claim of innocence or
fairness to one over narrow process issues: Has the
state time limit for filing a habeas petition passed? Is
the petition barred by some other rule? This is what
the federal courts now spend their time parsing.” 13
Not only has the AEDPA resulted in a lower
success rate for habeas petitions, but “it has also
failed at its stated aim of reducing time-consuming
appeals.”14 According to a 2007 study, the time
courts spend processing habeas cases has actually
increased on average. “To the extent that [the law’s]
provisions were designed to streamline the overall
processing of individual cases, that result has not

11

Honorable Stephen R. Reinhardt, Circuit Judge, United
States Court of Appeals for the Ninth Circuit, The Demise of
Habeas Corpus and the Rise of Qualified Immunity, 113 Mich.
L. Rev. 1219 (2015).
12
Id.
13
Emily Bazelon, The Law That Keeps People on Death Row
Despite Flawed Trials, The New York Times Magazine, Jul. 17,
2015.
14
Id.

49

been achieved,” the authors of such study
concluded.15
AEDPA’s one-year statute of limitations
simply does not operate to “curb any abuses of the
writ” by precluding a first time § 2254 petitioner
from seeking federal habeas relief simply because he
filed his state petition more than one year from the
conclusion of his direct appeal but still in a timely
manner pursuant to the laws of his state. Such
petitioner has not wasted the court’s time by filing
“repeated specious petitions.” He has simply
exercised the rights afforded him under state law.
Due process requires that a petitioner be
allowed to exhaust his state habeas remedies in the
time period deemed fit by the state legislature and
that he not be denied the right to seek federal habeas
relief if he timely and properly filed for state habeas
relief under the laws of his state. The AEDPA’s strict
one-year period of limitations does not provide a
first-time petitioner, such as Mr. Rutland, who
timely sought his state habeas corpus relief within
the four years allowed by Georgia law, due process of
law by denying him access to federal habeas relief.
The AEDPA statute of limitations should be struck
down as a violation of due process.
Conclusion
For all of the reasons set forth herein,
Petitioner Shawn Rutland respectfully moves this
Court to deny Respondent’s Motion to Dismiss
Petition as Untimely.

15

Id.

50

This 4th day of October, 2016.
s/ Laura D. Hogue
LAURA D. HOGUE
Georgia State Bar No. 786090
Attorney for Petitioner
Hogue & Hogue, LLP
341 Third Street
P. O. Box 1795
Macon, GA 31202-1795
(478) 750-8040 telephone
(478) 738-0859 facsimile
laura@hogueandhogue.com
s/ Susan D. Raymond
SUSAN D. RAYMOND
Georgia State Bar No. 203703
Attorney for Petitioner
Hogue & Hogue, LLP
341 Third Street
P. O. Box 1795
Macon, GA 31202-1795
(478) 750-8040 telephone
(478) 738-0859 facsimile
susan@hogueandhogue.com

51

Certificate of Service
I certify by my signature that I have
served a copy of the foregoing Response to
Motion to Dismiss upon opposing counsel by
electronic filing to:
Clint C. Malcolm
Assistant Attorney General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, GA 30334-1300
This 4th day of October, 2016.
s/Laura D. Hogue
LAURA D. HOGUE

52

EXHIBIT “A”
PORTION OF TRANSCRIPT FROM
SENTENCING HEARING

53

IN THE SUPERIOR COURT OF BIBB COUNTY
STATE OF GEORGIA
STATE OF GEORGIA,

:

VS.

: Case No. 07-CR-61701
Vol. III of III
SHAWN C. RUTLAND, : Pages 290 thru 316
Defendant.

:

BEFORE:
HON. MICHAEL STODDARD,
SENIOR JUDGE
MACON JUDICIAL CIRCUIT
LOCATION:
BIB COUNTY COURTHOUSE
MACON, GA 31201
DATE:
DECEMBER 5, 2007
APPEARANCES:
FOR THE STATE:

NANCY SCOTT MALCOR
ASST. DIST. ATTORNEY
661 Mulberry St., 3rd Floor
Macon, GA 31201

FOR THE DEFENDANT: RICHARD WALLER, JR.
OFFICE OF PUBLIC DEF.
201 Second St., Ste. 550
Macon, GA 31201
Susan M. Breedlove, CCR
54

1526 Hwy 16 East
Jackson, GA 30233
770-775-3081

55

INDEX
VERDICT

PAGE 294

SENTENCE

PAGE 314

WITNESS:
ROSILYN WILLIAMS

PAGE 304

WANZA WILLIAMS

PAGE 308

KRISTI RUTLAND

PAGE 310
EXHIBITS

None

56

p. 315
JUDGE STODDARD: It has to be filed within
30 days of the date that I sign the sentence, which
should be today. Do you have a conflict of public
office signing for appeals, or how doesMR. WALLER: It depends on the contention.
JUDGE STODDARD: Okay.
MR. WALLER: If the contention involves a
conflict, yes, he would go. Initially, I would file a
motion for a new trial and then we’ll proceed.
JUDGE STODDARD: All right. You can file
your motion for new trial, and then for the procedure
that you have in place to go ahead. You have the
right to file a habeas corpus as to this sentence, and
it has to be filed within four years of the date the
conviction becomes final, either from direct review or
from any other kind of delay because of appellate
review or sentence review, but you have four years to
file a habeas corpus. Have you discussed that with
him as well?
MR. WALLER: Yes, Your Honor.
JUDGE STODDARD: All right. That’s the
order of the Court. If you will—you’re excused. If
you’ll go back to the jury assembly room on the
fourth floor.
(Whereupon, the trial was adjourned at 11:01 a.m.)

57

CERTIFICATE
STATE OF GEORGIA
COUNTY OF BUTTS
I, Susan M. Breedlove, Certified Court
Reporter, do hereby certify that the foregoing
proceedings were taken down by me as stated in the
caption; that the foregoing proceedings were reduced
to print by me; that the foregoing pages represent a
true and correct transcript of the proceedings.
I further certify that I am neither kin nor
counsel to any of the parties and am not financially
interested in the outcome of the action.
This certification is expressly withdrawn and
denied upon the disassembly and photocopying of the
foregoing three volumes of transcripts of the
proceedings or any part thereof, including exhibits,
unless said disassembly or photocopying is done by
the undersigned certified court reporter, and the
signature and original seal is attached thereto.
This 5th day of January, 2008.
/s/ Susan M. Breedlove
SUSAN M. BREEDLOVE
Certified Court Reporter

58

Case 5:16-cv-00182-MTT-CHW Doc. 9
Filed 09/13/16
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
SHAWN C. RUTLAND,
Petitioner,
v.
STANLEY WILLIAMS,
Respondent.

:
:
:
: CIVIL ACTION NO.
:
5:16-CV-182
:
:
:

MOTION TO DISMISS PETITION AS UNTIMELY
COMES NOW Respondent, through counsel,
Samuel S. Olens, Attorney General for the State of
Georgia, and makes this his motion to dismiss this
petition as untimely under the period of limitations
of 28 U.S.C. § 2244(d) by showing and stating as
follows:
1.
Petitioner filed this federal petition on May 10,
2016, in which he challenges his December 2007 Bibb
County jury trial convictions and sentences for
armed robbery, hijacking a motor vehicle, and
aggravated assault were affirmed in part, reversed in
part, and remanded with direction on March 5. 2009.
Rutland v. State, 296 Ga. App. 471, 675 S.E.2d 506
(2009). The Georgia Court of Appeals remanded the
case because the trial court applied the wrong legal
59

standard concerning Petitioner’s challenge to the
weight of the evidence under O.C.G.A. §5-5-21. Id.
Upon remand, the trial court applied the correct
legal standard and held that the verdicts were not
decidedly and strongly against the weight of the
evidence; this ruling was affirmed on direct appeal.
Rutland v. State, No. A10A0281 (Ga. App. Mar. 3,
2010) (unpublished).
2.
Respondent submits this petition is untimely
under the one-year period of limitations of 28 U.S.C.
§ 2244(d). Petitioner did not file this petition within
one year of his conviction becoming “final,” and the
tolling provision does not save him.
3.
Respondent’s position is set forth more fulling
in his brief filed in support of this motion.
CONCLUSION
WHEREFORE, Respondent prays that the
Court dismiss this petition as untimely.
Respectfully submitted,
SAMUEL S. OLENS
Attorney General

551540

BETH A. BURTON

750150

s/Paula K. Smith
PAULA K. SMITH
Senior Assistant Attorney General

662160

60

s/Clint C. Malcolm
CLINT C. MALCOLM
Assistant Attorney General
Please serve:
CLINT C. MALCOLM
Assistant Attorney General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, GA 30334-1300
Telephone: (404) 463-8784

61

745116

Case 5:16-cv-00182-MTT-CHW Document 1
Filed 05/18/16
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
Shawn C. Rutland,
:
Petitioner
GDC # 0001267165,
:
Inmate Number
vs.
:
Stanley Williams,
Warden

Civil Action No.
5:16-cv-00182-MTT

:

Smith State Prison,
:
Respondent
(Name of Institution where you are now located)
PETITION UNDER 28 U.S.C. § 2254 FOR WRIT OF
HABEAS CORPUS
1. (a) Name and location of court that entered the
judgment of conviction you are challenging:
Superior Court of Bibb County, Georgia
(b) Criminal docket or case number: 07-CR-61701
2. (a) Date of the judgment of conviction: December
5, 2007
(b) Date of sentencing: December 5, 2007
3. Length of sentence: Count One (Armed Robbery):
Life with credit for time served since November 9,
2006; Count Two (Hijacking of Motor Vehicle): 20
years to run consecutive to Count One sentence;
62

Count Three (Aggravated Assault): 20 years to
run concurrent with Count Two sentence
4. In this case, were you convicted on more than one
count or of more than one crime?
X Yes □ No
5. Identify all crimes of which you were convicted
and sentenced in this case:
Count One: Armed Robbery; Count Two:
Hijacking of Motor Vehicle; Count Three:
Aggravated Assault
6. (a) What was your plea? Please check one:
X (1) Not Guilty
□ (2) Guilty
□ (3) Nolo contendere (no contest)
□ (4) Insanity Plea
(b) If you entered a guilty plea to one count or
charge and a not guilty plea to another count
or charge, what did you plead guilty to and
what did you plead not guilty to: N/A
(c) If you went to trial, what kind of trial did
you have? (Check one)
X Jury
□ Judge only
7.
Did you testify at a pretrial hearing,
trial, or a post-trial hearing?
□ Yes X No

63

8.

Did you appeal from the judgment
conviction?
X Yes □ No

9.

If you did appeal, answer the following:
(a) Name of court: Georgia Court of
Appeals (2 appeals)
(b) Docket or case number: A08A2372,
A10A0281
(c) Result:
A08A2372: Affirmed in part, reversed in
part, and remanded with direction
A10A0281: Affirmed
(d) Date of result:
A08A2372: March 5, 2009
A10A0281: March 3, 2010
(e) Citation to the case:
A08A2372: Rutland v. State, 296 Ga.
App. 471, 675 S.E.2d 506 (2009)
A1010281: Not published
(f) Grounds raised:
A08A2372: (1) the unconstitutionality of the
non-merger provision of the hijacking a motor
vehicle statute, OCGA § 16-5-44.1(d); (2) an
impermissibly suggestive photographic lineup;
and (3) trial court’s use of an incorrect
standard of review in considering the motion
for new trial challenging the weight of the
evidence under OCGA § 5-5-21
A1010281: (1) the trial court’s erroneous
determination that the verdict was not
decidedly and strongly against the weight of
the evidence
(g) Did you seek further review by a
higher state court?
□ Yes X No
64

10.

11.

If yes, answer the following: N/A
(1) Name of court:
(2) Docket or case number:
(3) Result:
(4) Date of Result:
(5) Citation to the case:
(6) Grounds raised:
(h) Did you file a petition for certiorari
in the United States Supreme Court?
□ Yes X No
If yes, answer the following: N/A
(1) Docket or case number:
(2) Result:
(3) Date of Result:
(4) Citation to the case:
Other than the direct appeals listed
above, have you previously filed any
other petitions, applications, or motions
concerning this judgment of conviction
in any state court?
X Yes □ No
If you answer to Question 10 was “Yes,”
give the following information:
(a)
(1) Name of court: Superior Court
of Tattnall County, Georgia
(2) Docket or case number: 2013SU-HC-68
(3) Date of filing: October 17,
2013
(4) Nature of the proceeding:
Habeas Corpus Application
(5) Grounds raised: (1)
Ineffectiveness of trial counsel
for his failure to obtain an
eyewitness identification
expert to testify at trial; (2)
65

ineffectiveness of trial counsel
for his failure to object to
victim’s testimony as to the
certainty of his eyewitness
identification; (3)
ineffectiveness of trial counsel
for his failure to crossexamine detective as to his
termination from the police
department, which had been
partly based upon the
detective’s dishonesty; (4)
ineffectiveness of trial counsel
for his failure to object to
prejudicial hearsay; and (5)
ineffectiveness of trial counsel
for his failure to object to rereading of certain
objectionable testimony
(6) Did you receive a hearing
where evidence was given on
your petition, application, or
motion? X Yes □ No
(7) Result: Denied
(8) Date of result: February
2, 2015
(b) If you filed any second petition, application,
or motion, give the same info:
(1) Name of court:
(2) Docket or case number:
(3) Date of filing:
(4) Nature of the proceeding:
(5) Grounds raised:
(6) Did you receive a hearing
where evidence was given on your

66

petition, application, or motion?
□ Yes □ No
(7) Result:
(8) Date of result:
(c) If you filed any third petition, application,
or motion, give the same info:
(1) Name of court:
(2) Docket or case number:
(3) Date of filing:
(4) Nature of the proceeding:
(5) Grounds raised:
(6) Did you receive a hearing
where evidence was given on your
petition, application, or motion?
□ Yes □ No
(7) Result:
(8) Date of result:
(d) Did you appeal to the highest state court
having jurisdiction over the action
taken on your petition, application or
motion?
(1) First petition: X Yes □ No
(2) Second petition: □ Yes □ No
(3) Third petition: □ Yes □ No
(e) If you did not appeal to the highest state
court having jurisdiction, explain why
you did not: N/A
12.

For this petition, state every ground on
which you claim that you are being held
in violation of the Constitution, laws, or
treaties of the United States. Attach
additional pages if you have more than
four grounds. State the facts supporting
each ground.

67

CAUTION: To proceed in federal court, you must
ordinarily first exhaust your available state-court
remedies on each ground on which you request action
by the federal court. Also, if you fail to set forth all
the grounds in this petition, you may be barred from
presenting additional grounds at a later date.
GROUND ONE: Petitioner was denied his Sixth
Amendment right to effective assistance of counsel,
as guaranteed by the Constitution of the United
States, due to trial counsel’s failure to obtain and use
at trial the services of an expert in eyewitness
identification to challenge the reliability of the
eyewitness identification, which was the only
evidence for the State.
(a) Supporting facts (Do not argue or cite law.
Just state the specific facts that support
your claim.)
Petitioner was charged with assaulting Wanza
Williams with a handgun and stealing Mr. Williams’
car keys and his motor vehicle. Mr. Williams was
shot during the offenses and taken to the hospital for
surgery. Approximately one week after the shooting,
while Mr. Williams was still recovering in the
intensive care unit of the hospital and sedated on
pain medication, police Detective Callum showed him
either a single photograph of Petitioner (according to
the audiotape and transcript of the lineup) or a photo
lineup of six persons (according to Detective Callum’s
testimony at trial). Mr. Williams purportedly
identified Petitioner as the person who robbed and
shot him. The eyewitness identification was the only
evidence against the Petitioner at trial. According to
Dr. Robert Shomer, the eyewitness identification
expert who testified for Petitioner at the state habeas
hearing, there were a number of significant problems
68

with the eyewitness identification and the photo
lineup that adversely affected the reliability of the
identification. Petitioner’s picture in the photo array
had been enlarged and the facial features of the
Petitioner stood out from the faces in the other
photographs. Although Detective Callum testified at
trial that he showed Mr. Williams a full array of six
pictures without any undue emphasis on any
particular picture, the transcript of the police
interview quoted the detective as stating that he was
showing Mr. Williams “a picture” and asking him to
verify whether he recognized “that person” in the
photograph. Detective Callum believed Petitioner to
be the attacker and did not admonish Mr. Williams
that the attacker’s photo might not be included in the
lineup. Mr. Williams’ initial description of his
attacker did not match Petitioner’s photograph or the
physical appearance of Petitioner at the time of
commission of the offenses. Finally, Mr. Williams fell
within the category of those persons most likely to
misidentify their attacker, since he had suffered a
traumatic and unexpected shooting by an unknown
attacker and was not asked to identify the attacker
until six days after the event, while under the effects
of pain medication. Despite the numerous problems
with the photo lineup and identification, trial counsel
failed to obtain the services of an expert in
eyewitness identification to testify on Petitioner’s
behalf at trial as to why such problems rendered the
pretrial identification unreliable. At the habeas
hearing, Dr. Shomer agreed that the identification
procedure was so “impermissibly suggestive as to
give rise to a very substantial likelihood of
irreparable misidentification.”
(b) If you did not exhaust your state remedies
on Ground One, explain why: N/A
69

(c) Direct Appeal of Ground One:
(1) If you appealed from the judgment of
conviction, did you raise this issue:
□ Yes X No
(2) If you did not raise this issue
in your direct appeal, explain why:
Trial counsel also represented petitioner
in the direct appeal, so he could not
raise the issue of his own
ineffectiveness.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a
post-conviction motion or petition for
habeas corpus in a state trial court?
X Yes □ No
(2) If your answer to Question (d)(1) is
“Yes,” state:
Type of motion or petition:
Application for Habeas Corpus
Name and location of the court
where the motion or petition was
filed:
Superior Court of Tattnall
County, Georgia
Docket or case number: 2013-SUHC-68
Date of the court’s decision:
February 2,2015
Result (attach a copy of the
court’s opinion or order, if
available):
Application Denied. See attached
copy of Final Order.
(3) Did you receive a hearing on
your motion or petition?
X Yes □ No
70

(4) Did you appeal from the denial of
your motion or petition?
X Yes □ No
(5) If your answer to Question (d)(4) is
“Yes,” did you raise this issue in the
appeal?
X Yes □ No
Petitioner filed a Petition for
Certificate of Probable Cause.
(6) If your answer to Question
(d)(4) is Yes,” state:
Name and location of the court
where the appeal was filed:
Supreme Court of Georgia
Docket or case number:
S15H0933
Date of the court’s decision: June
1, 2015
Result (attach a copy of the
court’s opinion or order, if
available).
Petition Denied. See attached
copy of Order.
(7) If your answer to Question (d)(4) or
Question (d)(5) is “No,” explain why you did not raise
this issue: N/A
(e) Other Remedies: Describe any other
procedures (such as habeas corpus, administrative
remedies, etc.) that you have used to exhaust your
state remedies on Ground One: N/A
GROUND TWO: Petitioner was denied his Sixth
Amendment right to effective assistance of counsel,
as guaranteed by the Constitution of the United
States, due to trial counsel’s failure to object at trial
to repeated testimony elicited by the State
71

concerning the victim’s certainty as to his eyewitness
identification of the Petitioner.
(a) Supporting facts (Do not argue or cite law.
Just state the specific facts that support
your claim.)
Wanza Williams’ identification of the Petitioner as
the person who assaulted and robbed him was the
State’s only evidence at trial. Mr. Williams, Detective
Callum, and Detective Ron Rodgers all were
permitted to testify, without objection, that Mr.
Williams was unwavering and certain in his
identification of the Petitioner as the perpetrator.
Even though the Georgia Supreme Court, two years
prior to Petitioner’s trial, recognized the lack of any
scientifically documented correlation between a
witness’s certainty in his or her identification of
someone as the perpetrator of a crime and the
accuracy of that identification, trial counsel for
Petitioner failed to object to four separate questions
or answers involving the certainty of Mr. Williams’
eyewitness identification and never moved for a
mistrial on this error.
(b) If you did not exhaust your state
remedies on Ground One, explain why: N/A
(c) Direct Appeal of Ground One:
(1) If you appealed from the
judgment of conviction, did you raise this issue:
□ Yes X No
(2) If you did not raise this issue
in your direct appeal, explain why: Trial counsel also
represented petitioner in the direct appeal, so he
could not raise the issue of his own ineffectiveness.
(d) Post-Conviction Proceedings:

72

(1) Did you raise this issue
through a post-conviction motion or petition for
habeas corpus in a state trial court? X Yes □ No
(2) If your answer to Question
(d)(1) is “Yes,” state:
Type of motion or petition:
Application for Habeas Corpus
Name and location of the court
where the motion or petition was filed:
Superior Court of Tattnall
County, Georgia
Docket or case number: 2013-SUHC-68
Date of the court’s decision:
February 2, 2015
Result (attach a copy of the
court’s opinion or order, if available):
Application Denied. See attached
Copy of Final Order.
(3) Did you receive a hearing on
your motion or petition?
X Yes □ No
(4)Did you appeal from the denial of
your motion or petition?
X Yes □ No
(5)If your answer to Question (d)(4) is
“Yes,” did you raise this issue in the
appeal?
X Yes □ No
Petitioner filed a Petition for
Certificate of Probable Cause.
(6) If your answer to Question (d)(4) is
“Yes,” state:
Name and location of the court
where the appeal was filed:
Supreme Court of Georgia
Docket or case number:
73

S15H0933
Date of the court’s decision: June
1, 2015
Result (attach a copy of the
court’s opinion or order, if available).
Petition Denied. See attached
copy of Order.
(7)If your answer to Question (d)(4) or
Question (d)(5) is “No,” explain why you
did not raise this issue: N/A
(e) Other Remedies: Describe any other
procedures (such as habeas corpus, administrative
remedies, etc.) that you have used to exhaust your
state remedies on Ground One: N/A
GROUND THREE: Petitioner was denied his Sixth
Amendment right to effective assistance of counsel,
as guaranteed by the Constitution of the United
States, due to trial counsel’s stipulation with the
State at trial that the parties would not elicit any
testimony regarding the lead detective’s termination
from the police department or the grounds for such
termination, even though one of the reasons for his
termination was his dishonesty in matters under
investigation.
(a) Supporting facts (Do not argue or cite law.
Just state the specific facts that support
your claim.)
The State’s case against Petitioner was exclusively
dependent upon the eyewitness identification
purportedly made at the hospital by the victim,
Wanza Williams. This interview and purported
photo identification was conducted by Detective
Callum. As set forth in Ground One, above, the
interview and photographic identification procedures
were so unduly suggestive as to be impermissibly
and irreparably flawed. Detective Callum’s
74

veracity—not the veracity of the injured and
medicated victim--was the central question for the
jury, given that his testimony concerning the photo
identification procedure differed from the audiotape
of it. Detective Callum’s credibility was crucial to
the reliability of the eyewitness identification.
Detective Callum had been terminated from his
position with the police department only three
months prior to Petitioner’s trial, after an internal
investigation revealed several violations of
departmental policies and, most importantly—that
Detective Callum had been untruthful during the
investigation of those violations. Yet, counsel for
Petitioner stipulated with the State that neither
party would elicit any testimony at trial regarding
the reasons for Detective Callum’s termination.
Defense counsel, therefore, agreed not to impeach the
detective with evidence of the detective’s
termination, even though one underlying ground for
the termination was the detective’s dishonesty.
(b) If you did not exhaust your state
remedies on Ground One, explain why: N/A
(c) Direct Appeal of Ground One:
(1) If you appealed from the
judgment of conviction, did you raise this issue: □
Yes X No
(2) If you did not raise this issue
in your direct appeal, explain why: Trial counsel also
represented petitioner in the direct appeal, so he
could not raise the issue of his own ineffectiveness.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue
through a post-conviction motion or petition for
habeas corpus in a state trial court? X Yes □ No
(2) If your answer to Question
(d)(1) is “Yes,” state:
Type of motion or petition:
75

Application for Habeas Corpus
Name and location of the court
where the motion or petition was filed:
Superior Court of Tattnall
County, Georgia
Docket or case number: 2013-SUHC-68
Date of the court’s decision:
February 2, 2015
Result (attach a copy of the court’s
opinion or order, if available):
Application Denied. See attached copy
of Final Order.
(3) Did you receive a hearing on
your motion or petition?
X Yes □ No
(4) Did you appeal from the
denial of your motion or petition?
X Yes □ No
(5) If your answer to Question
(d)(4) is “Yes,” did you raise this issue in the appeal?
X Yes □ No
Petitioner filed a Petition for
Certificate of Probable Cause.
(6) If your answer to Question
(d)(4) is “Yes,” state:
Name and location of the court
where the appeal was filed:
Supreme Court of Georgia
Docket or case number:
S15H0933
Date of the court’s decision: June
1, 2015
Result (attach a copy of the
court’s opinion or order, if available).
Petition Denied. See attached
copy of Order.
76

(7) If your answer to Question
(d)(4) or Question (d)(5) is “No,” explain why you did
not raise this issue: N/A
(e) Other Remedies: Describe any other
procedures (such as habeas corpus, administrative
remedies, etc.) that you have used to exhaust your
state remedies on Ground One: N/A
13.

Please answer these additional
questions about the petition you are
filing:
(a)
Have all grounds for relief that
you have raised in this petition been presented to the
highest state court having jurisdiction?
X Yes □ No
If your answer is “No,” state
which grounds have not been so presented and give
your reason(s) for not presenting them:
(b)
Is there any ground in this petition that
has not been presented in some state or
federal court? If so, which ground or
grounds have not been presented, and state
your reasons for not presenting them: N/A
14.
Have you previously filed any type of
petition, application, or motion in a federal court
regarding the conviction that you challenge in this
petition?
□ Yes X No
If “Yes,” state the name and location of
the court, the docket or case number, the
type of
proceeding, the issues raised, the date of the court’s
decision, and the result for each petition, application
or motion filed. Attach a copy of any court opinion or
order, if available: N/A

77

15.
Do you have any petition or appeal now
pending (filed and not decided yet) in any court,
either state or federal, for the judgment you are
challenging?
□ Yes X No
If “Yes,” state the name and location of
the court, the docket or case number, the type of
proceeding, and the issues raised: N/A
16.
Give the name and address, if you
know, of each attorney who represented you in the
following stages of the judgment you are challenging:
(a)
At preliminary hearing:
(b)
At arraignment and plea:
Richard A. Waller, Jr., Macon Circuit Public
Defender’s Office, 201 Second Street, Suite 550,
Macon, GA 31201
(c)
At trial: Richard A. Waller,
Jr., Macon Circuit Public Defender’s Office, 201
Second Street, Suite 550, Macon, GA 31201
(d)
At sentencing: Richard A.
Waller, Jr., Macon Circuit Public Defender’s Office,
201 Second Street, Suite 550, Macon, GA 31201
(e)
On appeal: Richard A.
Waller, Jr., Macon Circuit Public Defender’s Office,
201 Second Street, Suite 550, Macon, GA 31201;
Brandon Bullard, Georgia Public Defender Council,
104 Marietta Street, NW, Suite 400, Atlanta, GA
30303
(f)
In any post-conviction
proceeding: Laura D. Hogue, Hogue & Hogue, LLP,
341 Third Street, Post Office Box 1795, Macon, GA
31202-1795
(g)
On appeal from any ruling
against you in a post-conviction proceeding: Laura D.
Hogue and Susan D. Raymond, Hogue & Hogue,
78

LLP, 341 Third Street, Post Office Box 1795, Macon,
GA 31202-1795
17.
Do you have any future sentence to
serve after you complete the sentence for the
judgment that you are challenging? □ Yes X No
(a)
If so, give name and
location of court that imposed the other sentence you
will serve in the future: N/A
(b)
sentence was imposed:

Give the date the other

(c)
other sentence:

Give the length of the

(d)
Have you filed, or do you
plan to file, any petition that challenges the
judgment or sentence to be served in the future? □
Yes □ No
18.
TIMELINESS OF PETITION: If your
judgment of conviction became final over one year
ago, you must explain why the one-year statute of
limitations contained in 28 U.S.C. § 2244(d) does not
bar your petition.16 N/A
16

The Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”) as contained in 28 U.S.C. § 2244(d) provides in part
that:
(1)

A one-year period of limitation shall apply to an
application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run from
the latest of –
(A) The date on which the judgment became
final by the conclusion of direct review or
the expiration of the time for seeking such

79

Therefore, petitioner asks that the Court grant this
Petition Under 28 U.S.C. § 2254 for a Writ of Habeas
Corpus and any other relief to which petitioner may
be entitled.
/s/ Laura D. Hogue
Laura D. Hogue
Georgia Bar No. 786090
Attorney for Petitioner
Hogue & Hogue, LLP
341 Third Street
Post Office Box 1795
Macon, GA 31202-1795
review;
(B) The date on which the impediment to filing
an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the applicant
was prevented from filing by such state
action;
(C) The date on which the constitutional right
asserted was initially recognized by the
Supreme Court, if the right has been newly
recognized by the Supreme Court and made
retroactively applicable to cases on
collateral review; or
(D) The date on which the factual predicate of
the claim or claims presented could have
been discovered through the exercise of due
diligence.
(2)

The time during which a properly filed
application for State post-conviction or other
collateral review with respect to the pertinent
judgment or claim is pending shall not be counted
toward any period of limitation under this
subsection.

80

(478) 750-8040 telephone
(478) 738-0859 facsimile
laura@hogueandhogue.com
I declare (or certify, verify, or state) under penalty of
perjury that the foregoing is true and correct.
Executed (signed) on May 10, 2016. (date).
/s/ Shawn Rutland
Signature of Petitioner
Sworn to and subscribed before me this
10th day of May, 2016.
/s/ Notary Public
Notary Public

81

SUPREME COURT OF GEORGIA
Case No. S15H0933
Atlanta, June 01, 2015
The Honorable Supreme Court met pursuant
to adjournment. The following order was passed.
SHAWN C. RUTLAND v. STANLEY
WILLIAMS, WARDEN
From the Superior Court of Tattnall County.
Upon consideration of the application for
certificate of probable cause to appeal the denial of
habeas corpus, it is ordered that it be hereby denied.
All the Justices concur, except Benham and
Hunstein, J.J., who dissent.

Trial Court Case No. 2013HC68RR

SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Lea C. Rulton
Chief Deputy Clerk

82

SUPREME COURT OF GEORGIA
Case No. S15H0933
Atlanta, July 06, 2015
The Honorable Supreme Court met pursuant
to adjournment. The following order was passed.
SHAWN C. RUTLAND v. STANLEY
WILLIAMS, WARDEN
Upon consideration of the Motion for
Reconsideration filed in this case, it is ordered that it
be hereby denied.
All the Justices concur, except Benham and
Hunstein, J.J., who dissent.

SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Theresa S. Barnes
Clerk

83

